rtlii
Supreme Court, U.S.
FILED

No.

AUG 2 0 2021
office of theclerk

In The

Supreme Court of The United States

Glen Plourde,
Petitioner
v.

Ashely Poulin,
Respondent

On Petition For Writ Of Certiorari To
The Maine State Supreme Court

PETITION FOR A WRIT OF CERTIORARI

Glen Plourde
455 Chapman Road
Newburgh, Maine 04444
207-659-2595

QUEST!ONS PRESENTED
1. Does the fact that a Federal District Attorney has masqueraded as a Staff
Attorney working for a Public Law Firm in order to represent the Respondent and
prosecute the Petitioner, in a civil PFH case, infringe upon the Petitioner’s Fifth
Amendment Rights to procedural and/or substantive due process or otherwise
disadvantage the Petitioner in a way that is in conflict with The Constitution?
The Petitioner argues that it does.
The Petitioner has been prosecuted in this civil case under review by Federal
District Attorney “Christopher Hill” of the United States Attorney’s Office, District
of Maine, and Christopher Hill has represented himself to the Petitioner and The
Court (who must have known his true identity and therefore was complicit) as a
Staff Attorney working for the Public Law Firm Pine Tree Legal, as is evidenced
by his statements in court as well as his signed entry of appearance. Had this
Fraud not been committed upon The Petitioner, the Petitioner would have been in
a much different position and would have been able to make better and correctly
informed decisions regarding his defense in this case. Thus Petitioner’s Fifth
Amendment Rights to procedural and substantive due process have been infringed
upon.
2. Does the fact that a Judge issues a discovery order for the Respondent while not
issuing the same for the Petitioner, while “fast-tracking” the case and permitting
no formal discovery to occur, infringe upon the Petitioner’s Fifth Amendment
Rights to procedural and/or substantive due process or otherwise disadvantage the
Petitioner in a way that is in conflict with The Constitution and/or the basic
tenants of Judicial Fairness and Equality? The Petitioner argues that it does.
“Judge Dow” has issued a pre-trial Order in this case under review, requiring the
Petitioner to disclose his exhibits to the Respondent (a Judge-ordered discovery
request) while not ordering the same disclosure from Respondent to Petitioner in
that Order or in any other Order. Furthermore, Judge Dow has “fast tracked” this
case under review and did not allow for formal discovery proceedings to occur.
3. Does the fact that both the Maine State and Federal Courts, as well as a multitude
of Maine State and Federal Government Agencies, have completely ignored the
Petitioner’s true and accurate pleadings that he has been Tortured by U.S.
Government Personnel, and have failed to assist the Petitioner in any way
whatsoever, infringe upon the Petitioner’s Human Rights, Constitutional Rights,
and/or International Rights? The Petitioner Argues that it does.
The Government has failed to conduct any investigation, or aid the Petitioner in
any way, regarding his true, accurate, and verifiable claims that he has been
tortured. This non-action by the Government is in conflict with The Petitioner’s
basic Human Rights, his Constitutional Rights, and International Law.

LIST OF PARTIES.
[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Plourde v. Doe, Petition for Writ of Certiorari 19-448. Filed 09/30/19.
(Petition for KEN-18-479, initial 10/31/18 PFH Order).
Doe v. Plourde, No. KEN-20-217, Maine State Supreme Court. Judgement entered
03/04/21. (Appeal of 07/16/21 PFH Extension).
Doe v. Plourde, No. KEN-18-479, Maine State Supreme Court. Judgement entered
07/11/19. (Appeal of initial 10/31/18 PFH Order).
Poulin v. Plourde, No. WATDC-PA-18-00329, Waterville District Court. Judgement
entered 07/16/20. (PFH Extension Hearing; continuation of 10/31/18 Order).
Poulin v. Plourde, No. WATDC-SA-18-00329, Waterville District Court. Judgement
entered 10/31/18. (Initial PFH Hearing).

TABLEOECONTENTS

OPINIONS BELOW

1

JURISDICTION.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

16

CONCLUSION

40

INDEX TO APPENDICIES

APPENDIX A

Decision, Maine State Supreme Court, KEN-20-217

APPENDIX B

Decision, Waterville District Court, WATDC-PA-18-00329

APPENDIX C

Decision, Petition for Rehearing, M.S.C., KEN-20-217

APPENDIX D

Order, RE: Discovery to Respondent

APPENDIX E

Entry of Appearance, Christopher Hill

APPENDIX F

WATDC-PA-18-00329, Docket Record Page 1, 12/26/18

APPENDIX G

WATDC-PA-18-00329, Docket Record Page 1, 03/03/20

APPENDIX H

Public Biography, Christopher Hill

APPENDIX I

18 U.S.C. Chapter 113C — Torture

APPENDIX J

Geneva Conventions against Torture and Other Cruel, Inhuman
or Degrading Treatment or Punishment, Part 1

TABLEOF-AUTHORITIES

Cases
Artuso v. Vertex Pharm Inc., 637 F.3d 1, 5 (1st Cir. 2011)

25-40

Haines v. Kemer, 404 U.S. 519, 520................................

25 - 40

Statutes and Rules
18 U.S.C. 113C

25-40

Other
Fourth Amendment to the Constitution

16-25

Fifth Amendment to the Constitution.........

16-25

Eighth Amendment to the Constitution-----

25 - 40

Ninth Amendment to the Constitution........

25-40

Fourteenth Amendment to the Constitution

25-40

The Geneva Conventions Against Torture and Other Cruel, Inhuman or Degrading
25-40
Treatment or Punishment, Part 1

IN THE
SUPREME-CQURT-QF-THE-UNITEDSTATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
;«v
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix ft to the petition and is
reported at.
*Xo.
2.1-lltf
;or,
[ ] has been designated far publication but is not yet reported; or,
[ j is unpublished.
The opinion of the
________ court
appears at Appendix__6__to the petition and is
reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
l ] is unpublished.

001

to

to

JURISDICTION

t~]-For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was--------------- '—:--------- —.
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and aeopy of the
Appeals on the
date: _------------ —
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition far a writ of certiorari was granted
(date)
(date) on
to and mdndmg___—_
in Application No. _—A
The jurisdiction of this Courtis invoked under 28 U. S. C. § 1254(1).

pc] For cases from state courts:
The date on which Urn highest state court derided my ease was
A copy of that decision appears at Appendix .. A. .
{X3 A timely petition for rehearing was thereafter denied on the following date:
O
, and a copy of the order denying rehearing
appears at Appendix.—Cs.—.
itian for a writ of certiorariiwas granted
[>Cj An extension of time to file the 04*1*
___ (date)in
to and induding
— 6fate)mi
r"OrA^'
(OrJ^r
U
m
4
CA..5?)
Application No.
A—=
A-e

■Ge*' Cer+.

ISO

.

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

002

CONSTITUIIONALANDSTATUTORY-PROVISIONSINVOLVED
1. The Fourth Amendment to the United States Constitution - The right
of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
2. The Fifth Amendment to the United States Constitution - No person
shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual service in time of War
or public danger; nor shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation.
3. The Eighth Amendment to the United States Constitution - Excessive
bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.
4. The Ninth Amendment to the United States Constitution - The
enumeration in the Constitution, of certain rights, shall not be construed to
deny or disparage others retained by the people.
5. 18 USC Chapter 113C - Federal Torture Statutes.
Included as Appendix I due to length.
6. The Geneva Conventions against Torture and other Cruel, Inhuman,
or Degrading Treatment or Punishment, Part 1 - Adopted and opened
for signature, ratification and accession by General Assembly resolution
39/46 of 10 December 1984; entry into force 26 June 1987, in accordance with
article 27(1).
Included as Appendix J due to length.

003

STATEMENTJ3E_THECASE
Petitioner is an on-again off-again smoker who chose the Albion Town Office
and Library Public Parking lots to park in, while he smoked on the Public Sidewalk,
for a variety of lawful reasons, none of any of them having anything to do with
Poulin, whom he was unaware of until he was served a cease harassment notice on
08/29/18 and subsequently arrested on 08/30/18 for “Stalking Poulin”.
WATDC-PA-18-00329 was brought against Petitioner on August 30 2018 as
he was being booked at Kennebec County Jail for “Stalking Poulin” (Ret KENDCCR-18-20983) and “Trespassing at 22 Main Street” (Ref. KENDC-CR-18-21183),
neither of which case ever went to trial as both cases against Petitioner were
dismissed by Maine State Prosecutor Michael Madigan for “prosecutorial discretion”
after Maine State Prosecutor Alisa Ross was removed from both cases without
explanation. Petitioner believes that it goes without saying that he was and is
innocent of both charges (Ref. KENDC-CR-18-20983 “Order of Dismissal”; KENDCCR-18-21183 “Order of Dismissal”). Thus Petitioner maintains a spotless criminal
„

record (Petitioner has never been convicted of nor has he ever pled “guilty’ or “no
contest” to a crime), despite the desperate efforts of The State of Maine during the
years 2016 — 20181 and arguably continuing to present.
Petitioner had, prior to Poulin’s 08/29/18 complaint and his 08/30/18 arrest,
hung International Red Cross Flags from his balcony and installed International
Red Cross Curtains that are highly-visible to the majority of Main Street Albion in

“WEF. PENDC-CR-16-20309; KENDC-CR-18-20983; KENDC-CR-18-21183.

004

and refusal to investigate his True and Accurate Complaints of Torture filed in
Good Faith and discussed in Argument IX of KEN-18-479 (Ref. KEN-18-479 p.47 —
49)
Furthermore, Petitioner knows that his Red Cross Flags are highly-visible
from downtown Albion and would likely generate a “buzz” among the civilians of
Albion, as Albion is a small and close-knit community. Any further attempts by the
Government to smear or assassinate Petitioner might “not look quite right” given
the fact that Petitioner was displaying the International Red Cross Flag as well as
offering himself for Public Inspection in a highly-visible area.
The Abusive comments Petitioner was often subject to; as many as 2 - 3
different harassing vehicles per cigarette (roughly a five minute period), as well as
the suspicious activity taking place within that parking lot while Petitioner was
parked there, such as suspicious and unknown persons taking pictures of Petitioner
and his car and making no attempts to hide their actions, cars parking next to him
when the entire lot was empty, cars double-parking sideways in the parking lot
perpendicular to his vehicle and the occupants suspiciously “staring him down”,
etc... only strengthened Petitioner’s resolve to smoke there as clearly the
Government (State and Federal) did not want Petitioner on display in such a
highly-visible public location, and it would not take much investigation from anyone
with the Maine State or Federal Government to discover why.

005

entirely legal, and entirely Just and Proper. Petitioner was simply smoking
cigarettes on a public sidewalk in front of a Municipal (Government) Building while
wearing all-black (commonly associated with “Secret” in the Government
community) with a Pink Ribbon (commonly associated with Hillary Clinton)
hanging out of his pocket while displaying the International Red Cross Flag from
his balcony and curtains. Petitioner left it to the reasonable and intelligent citizens
of Albion to put the puzzle together for themselves.
This is entirely Legal, whether the Government (or The Court for that
matter) likes it or not. Had the Government reacted appropriately to Petitioner’s
Complaints, he would probably be receiving high-quality Medical Attention in a
Neutral Country right now under United Nations or Interpol Protection, instead of
living the Never-Ending Nightmare the United States Government has turned his
life into.
Petitioner was well-within his Legal and Constitutional Rights while
engaging in this Lawful Public Display of Political Activism that was clearly
proving effective, as described above, yet was nonetheless arrested on charges
brought by Poulin of 28 Main Street, the property directly adjacent to the Town
Office, a person he had never seen, heard of, nor did he or would he have had the
time for given the more pressing matters taking place in Petitioner’s life.
Prior to Poulin’s complaint, the Maine State Police had attempted to remove
Petitioner from the premises permanently by issuing him a “No Trespass Order” on
006

August 7 2018 after he told the Albion Town Clerks. whoJmdJaecomeJncredibly.
hostile towards him as he tried to lawfully procure public information regarding the
identities of his neighbors, that he would call the Kennebec County Sheriffs
Department if there was going to be a problem with his presence (10/31/18
Transcript Pages 106 — 108).
Recognizing that the public sidewalk is public property and that the Albion
Town Office does not own the Albion Town Library, according to their own maps,
Petitioner alerted the Maine State Government to this situation (Senator Susan
Collins, Governor Paul LePage, and the Maine Human Rights Commission) and
continued his political activism on the sidewalk at that location.
Eleven days later, on August 18 2018, Petitioner was criminally threatened
by a man from 28 Main Street who told Petitioner to remove himself from the
sidewalk. After Petitioner ignored the man and kept smoking, the man told
Petitioner that he would forcibly remove Petitioner from the sidewalk with his gun
and proceeded to his vehicle, where Petitioner heard the distinct sound of a
handgun slide being cycled and a bullet being chambered. This man was later
identified by Poulin as her boyfriend, “Jordan Strohman”, although the Albion Town
Tax Records list the property as being owned by one “Joseph Strohman Jr.”.
Petitioner filed a police report of this incident (KEN-20-217, Appendix 43 — 46)
although it was never investigated, to the best of his knowledge.
On August 20 & 21 of 2018 Petitioner was again threatened by Jordan
Strohman of 28 Main Street, who verbally harassed Petitioner and made obscene
007

a-poliee
report of this incident (KEN-20-217, Appendix 47 — 52) although it was never
investigated, to the best of his knowledge.
On August 25 2018 Petitioner was suspiciously followed by a car leaving 28
Main Street. When Petitioner pulled into the nearest populated house out of fear
for his life, the car suspiciously gunned the engine as it shot past Petitioner, clearly
signaling to Petitioner that it had been following him intentionally. Again,
Petitioner filed a police report of this incident (KEN-20-217 Appendix 53 - 55)
although it was never investigated, to the best of his knowledge.
)

Clearly the situation was becoming untenable for “Jordan Strohman” and the
Town of Albion as despite what Petitioner was enduring, as described above, he was
continuing to smoke on that sidewalk, in full view of the public, on a near-daily
basis, and filing police reports detailing the harassment he continued to receive in
the short time he spent smoking there. Clearly “The Authorities” needed a
scapegoat for this situation, as the Public at Large was watching these highly
adversarial events unfold with interest.
Enter Poulin’s PFH Order and Petitioner’s simultaneous and immediate
arrest on August 30 2018, thus “flipping the script” and casting Petitioner as the
aggressor despite objective evidence to the contrary. Nowhere will you find any
objective evidence that supports any of Poulin’s claims; they are all
unsubstantiated, unfounded, and uncorroborated.

008

in

every other aspect of his life, and knows that they know he is innocent and that he
had no idea who Poulin was prior to his arrest. Petitioner will not forget this Fact
in the future.
It is clear that the FBI could not coercively cease Petitioner’s Effective
Political Activism through constant harassment and intimidation so they have
instead arrested Petitioner on false allegations which has had a “chilling effect” on
Petitioner and has effectively put an end to Petitioner’s Political Activism and
Freedom of Speech. These criminal charges were eventually dropped when the
cases were exposed to be clearly unprosecutable and Poulin clearly unbelievable.2
The Maine Supreme Court has aided and abetted and engaged in publicly
defaming Petitioner as well, as they have stated in their 07/11/19 KEN-18-479
decision that “Petitioner was arrested after entering Doe’s [Poulin’s] driveway and
observing her through the glass portion of her door”; a He that appears nowhere
except within the “Statement of Facts” of Mehssa Martin’s KEN-18-479 Reply Brief
(on behalf of Poulin), and a He that is directly contradicted by the testimony of The
Maine State PoHce Officers’ who directly observed Petitioner and then arrested him;
MSP Troopers Webber (KEN-20-217 Appendix 56) and Belanger (KEN-20-217
Appendix 57).
Hearing on WATDC-PA-18-00329 was set for October 01 2018. Petitioner
filed a Motion to Dissolve on November 18 2018 and that Motion was set for hearing

KEF. KENDC-CR-18-20983; KENDC-CR-18-21183.

009

September 27 2018. At that September_27_2Qf8Jiearing.-Eonlin-testified-she-ha4just received Petitioner’s Motion the previous night; it had therefore required
Petitioner’s arresting officer3 Maine State Police Trooper Tyler Harrington
(“Trooper Harrington”) 9 days to serve Poulin with Petitioner’s time-sensitive
motion, and Judge Davis used Trooper Harrington’s neglect and/or incompetency
(intentional or otherwise) as an excuse to terminate Petitioner’s Motion to Dissolve
with no hearing whatsoever (Ref. 09/27/18 Trial Transcript Page [“TTP”] 7 — 12).
At the October 01 2018 hearing a specious 4-hour Trial took the entire Court
Session and WATDC-PA-18-00329 was thus continued to October 25 2018 by Judge
Valerie Stanfill (“Judge Stanfill”).
Petitioner later received a notice from Judge Stanfill saying that the Final
Hearing had been rescheduled for Halloween, October 31 2018.
On October 29 2018 Petitioner received a Scheduling Order from Judge
Stanfill limiting his time for Defense to a single hour, thus effectively Terminating
Petitioner’s Defense as has been described in Petitioner’s appeal of the 10/31/18
Order to The Maine Supreme Court, KEN-18-479 (Ref. KEN-18-479, 23 — 25,
Attachment 2; Appendix Page [“AP”] 170).
On October 30 2018 Petitioner received a verdict, in response to a Motion to
Quash made by Maine State Assistant Attorney General Jonathan Bolton (KEN-18479 AP 171 — 182), issued by Judge French decreeing that one of his subpoenaed
witnesses, Maine State Police Corporal Record (“Corporal Record”) did not have to

3 REF. KENDG-CR-18-20983; KENDC-CR-18-21183.

010

evidentiary item, time of argument to be deduced from Petitioner’s one-hour for
Defense. Furthermore, Judge French declared that Petitioner would have to argue
for inclusion of his arresting officer4 Trooper Harrington’s testimony, as well as the
3 evidentiary items associated with him, time of argument to be again deducted
from Petitioner’s one-hour for Defense (Ref. KEN-18-479 AP 183).
At the October 31 2018 Final Hearing Judge French enforced Judge Stanfill’s
one-hour time limit for Petitioner’s defense, and also dictated the order in which
witnesses were called, making it technically impossible for Petitioner to call certain
witnesses or view certain evidentiary items given his single-hour allotted by The
Court for his defense (Ref. KEN-18-479 AP 16 — 18).
Judge French ruled in favor of Poulin and furthermore made a callous
statement during her closing remarks regarding the Criminal Threatening with a
handgun Petitioner had endured from “Jordan Strohman”, apparently Poulin’s
boyfriend as testified by Poulin, that was reported to the Kennebec County Sheriffs
Office by Petitioner on August 20 2018, a full 9 days prior to Poulin filing for her
Temporary PFH Order, although this heinous crime was never followed up on by
any Law Enforcement Authority whatsoever (KEN-18-479 AP 220 - 230).
Petitioner appealed the October 31 2018 decision to The Honorable Maine
Supreme Court as KEN-18-479. The Maine Supreme Court upheld Judge French’s
decision.

aREF. KENDC-CR-18-20983; KENDC-CR-18-21183.

011

Petitioner applied to The Honorable United StatesJ5upremeJItourtJbr-Wr.it-Qf-.
Certiorari. That application was filed as 18-448 and eventually denied.
During the period of time spanning October 31 2018 through present,
Petitioner has gone out of his way to avoid potentially encountering Poulin at every
conceivable location. Petitioner has not once driven by her stated residence of 28
Main Street in Albion, instead opting to take longer and more inconvenient routes
to the nearby town of Waterville (the area’s major commerce center) in order to
preclude Poulin (or anyone else) from being able to truthfully say Petitioner was
seen driving by Poulin’s house. Petitioner permanently closed the second-story
sliding door to his outside patio, discontinued any and all use of that outside patio,
and placed a permanent curtain that obscured the glass in order to preclude Poulin
(or anyone else) from being able to truthfully say Petitioner was seen on his deck (or
in his apartment) looking in the vicinity of Poulin’s residence (the two residences
can arguably be seen from that vantage although it clearly requires keen eyesight).
Objectively, there was nothing more that Petitioner could have done to avoid
Poulin.
Petitioner moved from his apartment in Albion in early December of 2019
although still maintained the lease as court proceedings involving that residence
had yet to be ruled upon.5 Petitioner rightfully thought the matter with Poulin had
resolved itself as he had spent most of the month of October 2019 indoors at his
apartment and had not been served papers for an extension of Poulin’s PFH Order.

s REF. KEN. AP-18-69: KEN. AP-19-20: PEN. AP-19-11: PEN. AP-19-12: PEN-19-514: U.S.S.C
Petition for Certiorari 20-7827.

012

new primary residence, in approximately February of 2020, stating that a PFH
extension was being sought by Poulin. Petitioner noted that the paperwork he was
served indicated a service attempt had been made on October 30 2019 at “911”
o’clock (a day before the PFH would have expired) although Petitioner knows for a
fact that he was home all day that day (and the next day 10/31/19) at his apartment
and no one had attempted to serve him anything. Petitioner is, unsurprisingly,
unsurprised by this deceit.
On April 9 2020 Petitioner appeared, fully prepared, at The Waterville
District Court for the PFH extension hearing. Poulin insisted on appearing via
telephone citing COVID-19 concerns. Poulin’s attorney Jade Richards (“Richards”)
argued that Petitioner should be given only 15 minutes to present his defense
because “it would only take Poulin 15 minutes to provide her testimony” (she had no
witnesses or exhibits), and cited Judge Stanfill’s 10/29/18 scheduling order as
precedent for such an order (04/09/20 Transcript (Audio). Petitioner argued against
this as he had a large number of exhibits and could not possibly present his case, as
prepared, in 15 minutes. After some negotiation with The Court, Judge Dow agreed
to continue the case such that Petitioner would have more trial time, although
Judge Dow also ordered Petitioner to provide Richards with each and every exhibit
he intended to present and would not allow Petitioner to present any exhibit not
already provided to Richards (“Order” 04/09/20; KEN-18-217 AP. 24; 04/09/20
Transcript (Audio).
013

Petitioner was forced to provide Ms entire case toJBouIijaLS.attomeyJBichards
while receiving nothing whatsoever from Richards. When Petitioner challenged the
legality of such an Order (04/09/20 Transcript (Audio), Judge Dow told Petitioner
that he would extend the PFH order that day without further hearing if Petitioner
refused to do so (04/09/20 Transcript (Audio). Thus, Petitioner agreed to provide
Richards with his case exhibits and the hearing was extended “until such a time
that COVID-19 was no longer a concern, and the trial could be held in The Court
with both parties present”. Therefore, no additional hearing date was set (04/09/20
Transcript (Audio).
It didn’t take long for Petitioner to realize that COVID-19 was probably never
going to stop being a concern and therefore Poulin’s PFH was going to be effectively
extended, ex parte, for a very long time (perhaps forever) before additional hearing
was going to be scheduled, if it ever was. Petitioner therefore made motion for The
Court to schedule the hearing, for the amount of time Judge Dow had agreed to, at
its earliest convenience, as he was clearly being disenfranchised. In response,
Petitioner promptly received a hearing date of June 23 2020 from The Waterville
District Court.
On June 23 2020 Petitioner again appeared in Court, fully prepared, while
Poulin and Richards again insisted on attending remotely, citing COVID-19
concerns. While Petitioner was fully prepared, it was clear Poulin and Richards
were not as Poulin was unable to locate any exhibit Petitioner attempted to
reference (all of which had been submitted to Richards, correctly marked, almost
014

two months prior as
Richards wasted much of The Court’s and the Petitioner’s time attempting to find
the proper exhibits and at one point Judge Dow called a recess so that Poulin and
Richards could locate the proper exhibit(s) (06/23/20 TTP 46 — 51).
The June 23 2020 hearing was also fraught with technical problems due to
the remote attendance by Poulin and Richards, with the video feed often cutting
out, the sound often cutting out, and at multiple points the internet session crashed
completely, as is apparent from the 06/23/20 Trial Transcript (06/23/20 TTP). At
one point Petitioner asked Poulin an inescapable question regarding her credibility
(Ref. 06/23/20 TTP 69 — 70), and the internet session promptly crashed and Judge
Dow ended the hearing at that point and continued it until July 16 2020.
On July 16 2020 Petitioner again attended court, fully prepared, and Poulin
and Richards once again insisted on attending remotely, again citing COVID-19
concerns. Petitioner questioned Poulin’s credibility extensively during this hearing
and no reasonable person could have found her to be credible. Poulin’s fears were
not only unfounded, irrational, and unreasonable, but she contradicted her prior
testimony and affidavits and perjured herself countless times. Regardless, Judge
Dow ruled in her favor. Poulin had initially sought a 1-year PFH extension; upon
retaining Richards she modified her request to a 5-year extension; Judge Dow
granted her a 10-year extension.

015

REASONS FOR GRANTING THE WRTT
1. The fact that a Federal District Attorney has masqueraded as a Staff
Attorney working for a Public Law Firm in order to represent the
Respondent and prosecute the Petitioner, in a civil PFH case,
infringes upon the Petitioner’s Fifth Amendment Rights to
procedural and/or substantive due process and otherwise
disadvantages the Petitioner in a way that is in conflict with The
Constitution.
The fact that a Federal District Attorney has masqueraded as a Staff
Attorney working for a Public Law Firm in order to represent the Respondent and
prosecute the Petitioner, in a civil PFH case, infringes upon the Petitioner’s Fifth
Amendment Rights to procedural and/or substantive due process and otherwise
disadvantages the Petitioner in a way that is in conflict with The Constitution.
The Petitioner has been prosecuted in this civil case under review by Federal
District Attorney “Christopher Hill” of the United States Attorney’s Office, District
of Maine, and Christopher Hill has represented himself to the Petitioner and The
Court (who must have known his real identity) as a Staff Attorney working for the
Public Law Firm Pine Tree Legal, as is evidenced by his statements in court as well
as his signed entry of appearance. Had this Fraud upon The Petitioner not have
been committed, the Petitioner would have been in a much different position and
would have been able to make better and correctly informed decisions regarding his
defense in this case. Thus Petitioner’s Fifth Amendment Rights to procedural and
substantive due process have been infringed upon.
The Petitioner received Court Documentation in early 2020 indicating that
Poulin was seeking a 5-year extension of her PFH order, which was at that time
016

whatsoever regarding the Petitioner during that time.
Thus, the Petitioner was off to court yet again, trying to prove to a Judge that
the sky is blue, in yet another exercise in futility
In preparation for the upcoming PFH extension hearing, Petitioner ordered
the WATDC-PA-18-00329 Docket Record from The Waterville District Court in
order to remind himself of the previous proceedings, which were by this time almost
two years old. As the Petitioner read the Docket Record, he noticed an
inconsistency that had not been there before.
According to the Petitioner’s recollection, Court Transcripts, and earlier
copies of the Docket Record, Poulin was represented on 10/31/18 by an attorney
“Christopher Hill”, a Staff Attorney of Pine Tree Legal, a Public Law Firm.
However, according to the new Docket Record received by the Petitioner in
preparation for the 2020 hearing, Christopher Hill was now listed as a Federal
Attorney working for The United States Attorney’s Office for the District of Maine.
A comparison of Page 1 of the docket record of WATDC-PA-18-00329 printed
on 12/26/18 (Exhibit F) and Page 1 of the docket record printed of WATDC-PA-1800329 on 03/03/20 (Exhibit G) clearly shows an inconsistency as to Christopher
Hill’s affiliation.
Page 1 of the docket record printed on 12/26/18 (Exhibit F) clearly shows
Christopher Hill as a Staff Attorney working for the public law firm Pine Tree Legal
in Augusta, Maine; the state capital.
017

Page 1 of the docket record printed on 03/03/20 (Exhibit OLcleanly^how-R
Christopher Hill as a Federal Attorney working for The United States Attorney’s
Office for The District of Maine in Portland, Maine; where The Federal District
Court for the District of Maine is located.
The Petitioner thought it wise to research this inconsistency, so he simply
typed “Lawyer Christopher Hill” into a Google Search. There was only one result,
which the Petitioner finds to be highly-suspicious; if “Christopher Hill” was indeed a
Lawyer practicing since 2001, as his biography states, there should be much, much
more search results. The Petitioner has much more than one single court-related
search result associated with him, and he is not even a professional lawyer, he is a
Pro Se Litigant. Furthermore, the Petitioner has made his “debut” in court in 2016,
at the tender young age of 37, while Christopher Hill has apparently been
practicing law for an additional 15 years, since 2001.
The search result the Petitioner obtained was from www.awo.com and states
that Christopher Hill has been licensed to practice law in The State of New York
since 2001. It also says that Christopher Hill was licensed to practice law in The
State of Maine at The United States Attorney’s Office for The District of Maine
(Federal), 100 Middle Street, East Tower, Portland Maine 04101-4100 (Exhibit H).
The biography also states that Christopher Hill has been licensed to practice law as
such since 2017, which is one year before he represented Poulin (the Respondent) at
the 10/31/18 PFH Hearing.

018

Thus it is clear that Christopher Hill has misrepresented himself at the
10/31/18 PFH hearing by stating that he was a Staff Attorney from the public law
firm Pine Tree Legal and by filing an entry of appearance stating as much.
Likewise, it is clear that Poulin was able to retain a Federal Prosecutor to act
as her attorney during the 10/31/18 Civil PFH hearing, a highly unusual
circumstance which the Petitioner contends violates his Fifth Amendment Rights to
Procedural and Substantive Due Process as well as adds credibility to the Fact that
Petitioner was innocent of Poulin’s contentions and that this case was a charade at
the behest of the Government (why else would Poulin require a Federal Prosecutor
to represent her in a civil PFH case?), and also adds credibility to the Fact that the
Petitioner has positively been Tortured by United States Government Employees
during 2012 — 2013, as he has been pleading to The Courts and numerous State and
Government Agencies since 2015 (why else would this civil PFH case require a
Federal Prosecutor to represent Poulin opposite the Pro Se and unschooled-in-Law
Petitioner?).
When Petitioner asked Judge Dow if it was commonplace for Federal
Prosecutors to act as attorneys in Civil State PFH cases, Judge Dow replied simply
and curtly “No” and had no further comment.
Furthermore, there appears to have been an effort by The Court to obfuscate
or add confusion to Christopher Hill’s true identity. Prior to the 06/23/20 hearing,
Petitioner asked a Clerk of the Court for a copy of Christopher Hill’s entry of
appearance, which was submitted, in Petitioner’s presence, directly to Judge French
019

during the 10/31/18 hearing and a document that rightfully belongs in the Docket.
The Clerk spent approximately five minutes searching for this entry of
appearance before announcing that she could not find it and that it was not present
within the Docket. Petitioner asked the Clerk how this could be possible, and the
Clerk offered no explanation although she allowed Petitioner to search the Docket
himself. Petitioner examined every single page in the Docket, a process that took
him approximately 15 minutes, and verified that Christopher Hill’s entry of
appearance was not present, as it should have been, within the WATDC-PA-1800329 Docket.
Petitioner later sent The Waterville District Court a letter describing this
situation and asking that Christopher Hill’s Entry of Appearance be located and
mailed to him6. Petitioner received no reply whatsoever from The Court.
Approximately a month later, Petitioner made motion for the disclosure of
Christopher Hill’s Entry of Appearance7, and a copy was subsequently mailed to
him, although its absence from the Docket for at least two months undeniably casts
doubt upon its authenticity.
The Entry of Appearance lists Christopher Hill as a “Staff Attorney” working
for Pine Tree Legal (Exhibit E), which directly contradicts both the “amended”
Docket Record (Exhibit G) and the internet source that states Christopher Hill has
been a Federal Prosecutor for The United States District Court, District of Maine
since 2017 (Exhibit H).

6 KEN-20-217: Appendix Pages 39 - 40.
77 KEN-20-217, Appendix Pages 41 - 42.

020

Thus it is clear, that in addition to all the injustices Petitioner has suffered
from The WaterviUe District Court, Maine State Police, Kennebec County
Sheriffs Office, Maine State Government, and Federal Government, which have
been thoroughly discussed in KEN-18-479, KEN-20-217, and Pet. for Writ of Cert.
18-448; Petitioner was, unbeknownst to himself, prosecuted by a Federal Prosecutor
masquerading as a Pine Tree Legal Staff Attorney during the 10/31/18 hearing, and
there is evidence that supports the fact that this situation underwent an attempt to
be “covered up” by The Court (the missing Entry of Appearance).
Petitioner spent, literally, 100’s of dollars and 100’s of man-hours working on
his appeal KEN-18-479, and had he known that Poulin’s attorney Christopher Hill
was a Federal Prosecutor, that appeal would have been written much differently.
Likewise, Petitioner spent, literally, 1000’s of dollars and 1000’s of man hours
working on his Application for Writ of Certiorari to the United States Supreme
Court for this case (18-448), and had he known that Poulin’s attorney Christopher
Hill was a Federal Prosecutor, that application would have been written much
differently.
Petitioner argues that Fraud has been committed in submitting a knowingly
false document to the Court, the fraudulent entry of appearance (Exhibit E).
Similarly, Petitioner argues that Christopher Hill is guilty of violating the Legal
Ethical Code (perhaps an oxymoron) he is sworn to uphold both as a licensed
attorney and Federal Prosecutor.
Clearly there is a very large degree of Maine State and Federal Government
021

involvement in this case, and none of it has been to the benefit of Petitioner while
all of it has been to the benefit of Poulin8. Thus Petitioner finds that he has been
subjected to a sham of Maine State Judicial Proceedings, and regardless of the
quality of his case or the evidence in his favor, he was never going to win as both
the Maine State and Federal Governments were intent on portraying Petitioner as
a miscreant in order to fit their agenda as clearly they had too much to lose9.
Petitioner contends that, in addition to perpetrating Fraud on both Petitioner
and The Court by submitting a knowingly false Entry of Appearance to The Court
(Exhibit E), The Petitioner’s Fifth Amendment Rights to Procedural and
Substantive Due Process have been violated, and possibly other Constitutional
Rights conferred to the Petitioner have been violated as well.
Petitioner’s Fifth Amendment procedural and substantive due process rights
were violated by the Fraud perpetrated on him, which could have only occurred
with The Waterville District Court’s acquiescence. Had Petitioner known he
was to be prosecuted in this highly-suspicious Civil PFH case by a Federal
Prosecutor, Petitioner would have been in a position to make better and
correctly informed decisions prior to and after the PFH hearing.
For example, the idea of a Federal Prosecutor representing a litigant in a
civil PFH proceeding is almost impossible to believe. What kind of strings were
pulled to allow this to happen? Had Petitioner known Christopher Hill was a
Federal Prosecutor, he would have attempted to hire an Attorney licensed to

s KEN-18-479, KEN-20-217,
s KEN-18-479, Pages 47 - 49.

022

\

practice m Federal Court himself, as there are many suspicious and unanswered
questions raised here, and the presence of a Federal Prosecutor prosecuting Poulin’s
civil PFH case against the Pro-Se Petitioner is highly-suspicious, to say the least.
Thus, Petitioner contends that his Fifth Amendment Rights to Procedural
and Substantive Due Process were violated by the Fraud perpetrated by a Federal
Prosecutor for The State of Maine (i.e. The Federal Government), who masqueraded
as a Staff Attorney for a public law firm and prosecuted the Petitioner under that
auspice, with The Court’s acquiescence.
Had Petitioner known Christopher Hill was a Federal Prosecutor for The
State of Maine, he would have been in a much different position and able to
make better and correctly-informed decisions regarding his defense, such as
hiring an Attorney licensed to practice in Federal District Court. However, because
of the Fraud perpetrated upon the Petitioner and condoned by The Court,
Petitioner was not in a position to be able to make better and correctly
informed decisions regarding his defense and thus the Petitioner contends that
a Federal Prosecutor masquerading as a Staff Attorney from a public Law Firm in
order to prosecute a civil PFH case against the Petitioner is a violation of the
Petitioner’s Fifth Amendment Rights to both Procedural and Substantive Due
Process.

023

2. “Judge Dow” has issued a pre-trial Order in this case under review
that required the Petitioner to disclose aii ofhis exMhits~tcrthe------Respondent (a Judge-ordered discovery request) while not ordering
the same disclosure from Respondent to Petitioner in that Order or
in any other Order. Furthermore, Judge Dow has “fast tracked” this
case under review and did not allow for discovery proceedings to
occur. Petitioner argues that this is an infringement upon his Fifth
Amendment Rights to Procedural and Substantive Due Process.
Judge Dow Ordered that Petitioner turn all of his exhibits (and thus his
entire case) over to Poulin within 30 days during the 04/09/20 hearing, which was
continued. Judge Dow did not require the same from Poulin (Exhibit D).
Furthermore, Petitioner was told by Judge Dow in court that civil PFH cases
are handled so quickly (“fast tracked”) in Maine that there was no time for formal
discovery and that formal discovery would not occur in this case10.
Petitioner argues that this blatantly unfair and one-sided Order is an
infringement upon his Fifth Amendment Rights to Procedural and Substantive Due
Process.
Petitioner’s argument is very simple and self-explanatory as Judge Dow’s
Order says it all (Exhibit D). Petitioner’s Fifth Amendment Rights to procedural
and substantive due process were violated by this unfair order, which required
Petitioner to turn all of his exhibits over to Poulin and her attorney, who then had
the benefit of preparing her case knowing what the Petitioner was planning on
submitting into evidence, while the Petitioner was left completely in the dark by
this unfair order, which did not require any disclosure from Poulin or her attorney

10 WATDC-PA-18-00329,04/09/20 Hearing Transcript (Audio).

to the Petitioner, and thus Petitioner could not likewise prepare his case as he had
no idea what Poulin or her attorney might offer into evidence.
Thus Petitioner was heavily disadvantaged by this unfair order (Exhibit D)
and his Fifth Amendment Rights to both procedural and substantive due process
were infringed upon, as Petitioner was not in an equal position with Poulin
regarding the discovery of the case due to the order issued by Judge Dow
and no formal discovery was to occur, according to Judge Dow.
Petitioner was therefore not in a position to make well-informed
decisions regarding his case due to this order (Exhibit D), while Poulin was,
and because no formal discovery was to take place according to Judge Dow,
Petitioner’s Fifth Amendment Rights to Procedural and Substantive Due Process
have been infringed upon.
3. The fact that both the Maine State and Federal Courts, as well as a
multitude of Maine State and Federal Government Agencies, have
completely ignored the Petitioner’s true and accurate pleadings that
he has been tortured by U.S. Government Personnel, and have failed
to assist the Petitioner in any way whatsoever, grievously infringes
upon the Petitioner’s Human Rights, Constitutional Rights, and
International Rights.
The fact that both the Maine State and Federal Courts, as well as a
multitude of Maine State and Federal Government Agencies (collectively, “The
Government”), have completely ignored the Petitioner’s true and accurate pleadings
that he has been tortured by U.S. Government Personnel, and have failed to assist
the Petitioner in any way whatsoever, grievously infringes upon the Petitioner’s
Human Rights, United States Law, Constitutional Rights, and International Rights.
025

The Government has failed to conduct any investigation, or_aid_the.
Petitioner in any way, regarding his true, accurate, and verifiable claims that he
has been tortured. This non-action by the Government is clearly in conflict with The
Petitioner’s basic Human Rights, his Constitutional Rights, and International Law.
The State and Federal Courts have continually and intentionally erred in
overlooking the fact that the Petitioner has been Tortured as described extensively
in his Court Documentation, including this case11. Again, this is a violation of The
Geneva Conventions against Torture as well as the Petitioner’s Constitutional
Rights and basic Human Rights.
Not all of the Petitioner’s court documentation in which he describes the fact
that he has been tortured is listed here, as that documentation is copious in
number, although the Petitioner will list some of the numerous Judicially
Noticeable places where the Petitioner has described the Fact that he has been
Tortured to The Courts, including The Federal Courts who have jurisdiction over
both Torture and matters of International Law.
The Petitioner has made the Maine State Supreme Court aware multiple
times of the Fact that he has been tortured12 13 14. The Petitioner has additionally
made The Maine State Superior Court aware of the Fact that he has been tortured15

11 KEN-18-479; Pages 47 — 50, Argument 9. Appendix, Pages 25 — 163, 205 — 219, 271 - 299.
12 PEN-18-458; Pages 41 — 49, Argument 7. Appendix, Pages 48 - 75.
13 PEN-19-514; Pages 38 — 39, Argument 7. Appendix, Pages 139 — 166; 243 — 258.
14 KEN-18-479; Pages 47 - 50, Argument 9. Appendix, Pages 25 — 163, 205 - 219, 271 — 299.
15 AUGSC-AP-18-69 removed to BANSC-AP-19-11; Pages 84 - 96, 104 — 111, 132 - 133. Appendix,
Pages 305 - 320, 458 - 460, 461 - 465, 466 - 488. 489 - 490, 493, 503.

026

16 17 is 19 20 2i The Petitioner has furthermore made some of The Maine District
Courts aware of the fact that he has been tortured22 23 24 25 26 27 28. Thus it is clear
that The Maine State Court(s) is well-informed as to the plight of the Petitioner and
yet they have offered him no assistance whatsoever, despite his constant pleas for
their help.
The Maine State Court(s) are therefore in violation of International Law,
United States Policy and Law, and The Geneva Conventions against Torture, which
will be explained below.
The Petitioner has made The Honorable United States Supreme Court aware
multiple times of the Fact that he has been Tortured29 30 31 32. The Petitioner has
additionally made the United States First Circuit Court of Appeals aware of the

16 AUGSC-AP-18-20 removed to BANSC-AP-19-12; Pages 136 — 149, 154 — 163. Appendix, Pages
237-239,245-247,321-325.
17 AUGSC-CV-20-00222; Complaint, various additional filings, testimony.
18 AUGSC-CV-21-00014; Complaint, various additional filings, testimony.
19 BANSC-CV-20-00017; Complaint, Exhibits, various additional filings.
20 BANSC-CV-20-00055; Complaint, Exhibits, various additional filings.
21 SKOSC-CV-20-00006; Complaint, Exhibits, various additional filings.
22 PENDC-CR-16-20309; Various Filings, Testimony, Off-Record discussion with District Attorney
Marianne Lynch.
23 AUGDC-CR-18-20983; Various Filings, Testimony.
24 AUGDC-CR-18-21183; Various Filings, Testimony.
25 WATDC-PA-18-00329; Various Filings, Testimony.
28 WATDC-SA-18-00377; Various Filings.
27 WATDC-SA-18-00383; Various Filings.
28 PENDC-PA-16-00103; Various Filings, Testimony.
29 Petition for Writ of Certiorari 19-299.
30 Petition for Writ of Certiorari 19-448.
31 Petition for Writ of Certiorari 20-7827.
32 Petition for Writ of Certiorari 20-8474.

027

Fact that he has been Tortured33 34 35 36. The Petitioner has furthermore made The
United States District Court of Maine aware of the Fact that he has been Tortured37
38 39 40 4i 42 Thus it is clear that The United States Federal Court(s) is wellinformed as to the plight of the Petitioner and yet they have offered him no
assistance whatsoever, despite his constant pleas for their help.
The United States Federal Court(s) are therefore in violation of International
Law, United States Policy and Law, and The Geneva Conventions against Torture,
which will be explained below.
It is all-too clear that The United States Court System has continually erred
in continually and intentionally overlooking the highly-grievous Fact that the
Petitioner has been verifiably Tortured and in not responding to it or otherwise
providing the Petitioner with any assistance whatsoever and are therefore in
violation of Federal, Constitutional, and International Law (Ref. “Eighth and Ninth
Amendments to the United States Constitution”; “USC Chapter 113C — Torture”

33 20-1610, Pages 3, 22; “Motion for Court-Appointed Attorney” 11/27/20 15; “Second Motion for
Court-Appointed Attorney” 12/08/20 f'f 5, 8, 9; “Complaint”, Exhibit N; “Combined Petition for
Rehearing En Banc and Panel Rehearing” Pages i - ii, 2, 3 - 5, 5 - 15, 17.
34 20-1611, Pages 2, 7, 14, 27 — 29, 29 — 32, 32 — 33, 38 — 39; “Motion for Court-Appointed Attorney”
11/27/20 f 5; “Second Motion for Court-Appointed Attorney” 12/08/20 H5, 8, 9; “Combined Petition
for Rehearing En Banc and Panel Rehearing” Pages i — ii, 2 — 10, 16 — 17; “Complaint”, 11161 — 62,
Exhibits AA, K.
35 20-1777, ‘Motion for Court-Appointed Attorney” 11/27/20 f 5; “Second Motion for Court-Appointed
Attorney” 12/08/20 H5, 8, 9; “Combined Petition for Rehearing En Banc and Panel Rehearing” Pages
i - iv, 5, 16 — 18.
36 20-2166, Pages 2, 6, 15, 28, 44, 49 — 55; Motion for Court-Appointed Attorney” 12/31/20” 115, 8, 9;
Combined Petition for Rehearing En Banc and Panel Rehearing” pages v - vi, 2 - 3, 8 - 16, 16 - 17.
37 l:19-CV-00486-JAW; Complaint(s), Exhibits, Various Filings.
38 2:19-CV-00514-JAW; Complaint(s), Exhibits, Various Filings.
39 1:20-CV-00011-JAW; Complaint(s), Exhibits, Various Filings.
40 l:20-CV-00043-JAW; Complaint(s), Exhibits, Various Filings.
41 1:20-CV-00137-LEW; Complaint, Exhibits.
42 1:20-CV-00149-LEW; Complaint, Exhibits.

028

Appendix I; “Geneva Conventions Against Torture and Other Cruel, Inhuman or
Degrading Treatment or Punishment”, Appendix J).
The Courts’ continual and intentional decision to overlook and not address
the fact that the Petitioner has been tortured conflicts with The United States
Constitution (Ref. “Eighth and Ninth Amendments to the United States
Constitution”), U.S. Law (“USC Chapter 113C — Torture”, Appendix I), U.S. Policy
and International Law (“Geneva Conventions Against Torture”, Appendix J).
Furthermore, Torture is of exceptional importance as it is both a heinous
Federal and International Crime that is, in some cases, punishable by death and/or
International Sanctions and The Courts* failure to address the issue, much
less offer the Petitioner a response of any kind, raises serious doubts as to The
United States’ commitment to honor both its own Constitution and Laws as well as
its agreed-upon International Obligations.
The Petitioner has made The Maine State Supreme Court aware of the Fact
that he has been tortured in every Appeal he has written to them (Ref. citations
above), has made The United States First Circuit Court of Appeals aware of the
Fact that he has been tortured in every Appeal he has written to them (Ref. citations
above), and has made The Honorable United States Supreme Court aware of the
Fact that he has been tortured in every Appeal he has written to them (Ref. citations
above).
The Courts have been made aware that the Petitioner has made numerous
State and Federal Agencies aware that he has been Tortured (Ref. citations above),
029

and none of these* numerous State and Federal Agencies, The Maine State Court
System, or The Federal Court System has complied with Constitutional Law, U.S.
Law, or International Law regarding the Petitioner’s true, accurate, verifiable, and
signed and notarized complaints of Torture (Ref. “Eighth and Ninth Amendments to
the United States Constitution”), (Ref. “USC Chapter 113C - Torture” Appendix I),
(Ref. “Geneva Conventions Against Torture Part 1”, Appendix J).
The Petitioner notes that Torture is both a Federal and International Crime
and that The Maine State Supreme Court continually attempts to evade the issue
by stating that it is “not within their jurisdiction” (Ref. Maine State Supreme Court
Cases cited above and associated responses to Petitioner’s “Motions for
Reconsideration” and “Motions for Finding of Facts and Conclusions of Law”),
despite the fact that The State of Maine has both a duty and obligation to ensure
that its citizens Human Rights are protected and their United States Constitutional
Rights are respected, upheld, and incorporated through the Fourteenth Amendment
to the United States Constitution (Ref. “Eighth, Ninth, and Fourteenth
Amendments to the United States Constitution”).
Setting aside The Maine State Court System’s refusal to abide by Federal
Law and The United States Constitution, The Federal Court System
unquestionably has Jurisdiction over Torture and Claims of Torture (Ref. “USC
Chapter 113C - Torture”, Appendix I), (Ref. “Geneva Conventions Against Torture”,
Appendix J). The Federal Court System has offered no response whatsoever as to
why it continues to ignore the Fact that the Petitioner has been Tortured and has
030

Torture demand they must, and these State and Government Entities are therefore
again undeniably in violation of International Law (Ref. “Geneva Conventions
Against Torture Part 1 Article 14”, Appendix J).
Finally, The above-named State and Federal Courts and Government
Agencies may attempt to “wish away” the Fact that the Petitioner has been
Tortured, and may somehow wish to call his claims of torture unfounded, frivolous,
not rising to the level of Torture, etc., as he has provided only a handful of details
regarding the Torture he has endured, details that are fit to print, as he is
justifiably afraid to publicly disclose the more heinous aspects of the Torture he has
endured because he knows those heinous aspects to be classified as at least “Secret”
(“Top Secret” in the case of the Petitioner) and knows that “the means and methods
employed” to Torture him “are not commonly known amongst the General
Population”. This is not a case of simple water-boarding or being made to stand
naked in a pyramid (i.e. “Abu Ghraib”); the Torture the Petitioner has endured from
United States Government Personnel is much worse, and the injury he has suffered
has been lasting, persistent, and painful — and it shows no signs of abating.
However, somehow simply “wishing away” the Petitioner’s allegations of
Torture as unfounded, frivolous, or not rising to the level of Torture, is still in
violation of The Geneva Conventions Against Torture, specifically Articles 12 and
Articles 16, which state:
“Each State Party [including the United States of America] shall ensure that
its competent authorities proceed to a prompt and impartial investigation, wherever
there is reasonable ground to believe that an act of torture has been committed in
any territory under its jurisdiction” .
034

(Ref. “Geneva Conventions Against Torture Part 1, Article 12”, Appendix J).
and
1. “Each State Party shall undertake to prevent in any territory under its
jurisdiction other acts of cruel, inhuman or degrading treatment or punishment
which do not amount to torture as defined in article I, when such acts are
committed by or at the instigation of or with the consent or acquiescence of a public
official or other person acting in an official capacity. In particular, the
obligations contained in articles 10,11, 12 and 13 shall apply with the
substitution for references to torture of references to other forms of cruel,
inhuman or degrading treatment or punishment.”
2. “The provisions of this Convention are without prejudice to the provisions
of any other international instrument or national law which prohibits cruel,
inhuman or degrading treatment or punishment or which relates to extradition or
expulsion.”
(Ref. “Geneva Conventions Against Torture Part 1, Article 16”, Appendix J).
Therefore, The United States of America is obligated to “ensure that its
competent authorities proceed to a prompt and impartial investigation” under
Article 12, and even if The Courts and The Government Agencies listed above do
not believe the cruel, humiliating, and degrading treatment the Petitioner has been
subject to as described to them rises to the level of Torture, as Maine State Senator
Susan Collins did not, calling the Petitioner’s allegations of Torture “Abuse suffered
at the workplace”, an investigation is still warranted under Article 16 of The
Geneva Conventions against Torture.
Furthermore, The First Circuit has held that
“We accept as true all well-pled facts set forth in complaint and draw all
Reasonable Inferences therein in the pleader’s favor.” (Artuso v. Vertex
Pharm Inc., 637 F.3d 1, 5 (1st Cir. 2011).
And the Petitioner notes that the United States Supreme Court has
substantially identical holdings as well.
035

The Petitioner’s claims of Torture have been signed and sworn to under
Notary and Penalty of Perjury, and are well-pled in every single document The
Courts have received from the Petitioner which describes them, and therefore must
be accepted as True by The Courts (and This Court), pursuant to the holding in
Artuso v. Vertex Pkarm Inc. Furthermore, The Courts must draw all reasonable
inferences therein in the pleader’s favor, again pursuant to Artuso v. Vertex Pharm
Inc.
Therefore, there is “reasonable ground” to believe the Petitioner has been
tortured (or at least subjected to Cruel, Inhuman, or Degrading Treatment) as he
has pled numerous times pursuant to Artuso v. Vertex Pharm Inc., and therefore an
investigation is demanded by The Geneva Conventions Against Torture Article 12
(Ref. “Geneva Conventions Against Torture Part 1 Article 12”, Appendix J).
Additionally, The United States Supreme Court (This Court) has held that
[The Pleadings of a Pro Se Party are subject to] “less stringent standards
than formal pleadings drafted by lawyers” (Haines v. Kerner, 404 U.S. 519,
520)
The Petitioner is not sure of what exactly he has to do in order for The
Federal Court System to “properly receive the allegation that the Petitioner has been
tortured from the Petitioner”. The Maine State Supreme Court has “properly
received the allegation that the Petitioner has been tortured” and has responded
incorrectly that it is not within their jurisdiction as described above; however, The
Federal Courts have not told the Petitioner exactly what is additionally required of

036

him, if anything at all, in order for The Federal Courts to take his allegations of
Torture seriously and in response, act accordingly.
Pursuant to Haines v. Kemer and Artuso v. Vertex Pharm. Inc., the fact that
The Petitioner has alleged he has been tortured to The Maine State and Federal
Courts numerous times and in every Complaint, Appeal, and Motion for a CourtAppointed Attorney they have received from him (Ref. citations above) should easily
satisfy the Pro Se Petitioner’s burden of pleading the Fact that the Petitioner has
been Tortured to The Maine State and Federal Courts, since as a Pro Se Petitioner
the Petitioner has no idea how to accomplish this in any way other than the
numerous way(s) he already has (Ref. citations above).
The Pro Se Petitioner has been told by The Federal District Court of Maine
(citations above) that he cannot file a complaint for Torture because Torture is a
Federal Crime and the Petitioner is not a Federal Prosecutor. That may be true,
but that is not an excuse for The Federal Courts to completely ignore the Petitioner’s
True, Accurate, and Verifiable pleadings that he has been tortured, as it runs afoul
of United States Law (Appendix I), International Law (J), and The Constitution of
The United States, as described above.
Thus the Petitioner’s Pleadings of Torture are proper and should be properly
recognized and addressed by The Federal Courts (and/or the Department of Justice)
due to their own holdings in Artuso v. Vertex Pharm Inc. and Haines v. Kemer.
Therefore, whether or not the above-named Maine State Courts, Federal
Courts, and Maine State or Federal Government Agencies, including This Court,

037

would like to “believe” the Petitioner has been Tortured, and they have not told the
Petitioner that at all, in-fact they have all been suspiciously silent regarding
the matter of Torture at every mention of Torture and have never offered a
response of any kind whatsoever, the fact that the Petitioner has been tortured
has been extensively-pled and well-pled in his complaint(s) and pleadings (Ref.
citations above), and Those Courts, as well as This Court, must therefore accept the
fact that the Petitioner has been tortured to be True pursuant to the holding in
Artuso v. Vertex Pharm Inc., and an investigation is therefore demanded pursuant
to The Geneva Conventions against Torture, Part 1, Articles 12,13, 14 and 16 (Ref.
Appendix J), an investigation which has never been conducted, to the best of the
Petitioner’s knowledge, as not a single government agency has ever attempted
to contact the Petitioner or solicit additional information in regards to the
Torture he has suffered from United States Government Personnel.
Thus, at present, almost six years’ have passed since the Petitioner first
disclosed he was tortured to a Government Agency and the above-named
Government Agencies and Courts are still not in compliance with United States
Law (Appendix I), The United States Constitution, or International Law,
specifically The Geneva Conventions Against Torture (Appendix J).
The Petitioner has asked The First Circuit Court of Appeals specifically and
in multiple briefs (citations above), to:
“The Appellant also asks The Honorable United States First Circuit Court of
Appeals to connect him with an Impartial Federal Government Agency such that a
Prompt and Impartial Investigation into the Petitioner’s allegations of Torture may
038

■States-Government Personnel on a lawful and law-abiding United States Citizen
(the Petitioner) for no foreseeable or understandable reason whatsoever makes this
fact all the more disconcerting. This has been the Petitioner’s experience, it has not
been pleasant, and it has not been in accordance with United States Law,
Constitutional Law, nor International Law. Thus The Honorable United States
Supreme Court cannot afford to cast a blind eye to this issue and thus Certiorari
should be granted — or the Petitioner should be put in contact with an Agency that
can assist him with the issue of Torture, at the very least.
CONCLUSION
The Petition for Certiorari should be granted.
Furthermore, The Honorable United States Supreme Court should provide
the Petitioner with the resources (Legal Assistance, a Federal Agency, etc.) with
which he might find assistance, if not resolution to the very important problem of
Torture that he has positively experienced from United States Government
Personnel and the lasting, persistent, and painful injuries that have resulted from
that Torture.
Respectfully Sub

Glen Plo
455 Chapman Road
Newburgh, Maine 04444
207.659.2595

08/20/21

